         Written Testimony of H. David Kotz
               Inspector General of the
         Securities and Exchange Commission




Before the Economic Development, Public Buildings and
Emergency Management Subcommittee of the Committee
         on Transportation and Infrastructure,
             U.S. House of Representatives

               Thursday, June 16, 2011
                     10:00 a.m.
                                      Introduction

       Thank you for the opportunity to testify before this Subcommittee on the lease of

Constitution Center by the U.S. Securities and Exchange Commission (SEC or

Commission). I appreciate the interest of the Chairman, the Ranking Member, and the

other members of the Subcommittee, in the SEC and the Office of Inspector General

(OIG). In my testimony, I am representing the OIG, and the views that I express are

those of my Office, and do not necessarily reflect the views of the Commission or any

Commissioners.

       I would like to begin my remarks by briefly discussing the role of my Office and

the oversight efforts we have undertaken during the past few years. The mission of the

OIG is to promote the integrity, efficiency and effectiveness of the critical programs and

operations of the SEC. The SEC OIG includes the positions of the Inspector General,

Deputy Inspector General, Counsel to the Inspector General, and has staff in two major

areas: Audits and Investigations.

       Our audit unit conducts, coordinates, and supervises independent audits and

evaluations related to the Commission’s internal programs and operations. The primary

purpose of conducting an audit is to review past events with a view toward ensuring

compliance with applicable laws, rules, and regulations and improving future

performance. Upon completion of an audit or evaluation, the OIG issues an independent

report that identifies any deficiencies in Commission operations, programs, activities, or

functions and makes recommendations for improvements in existing controls and

procedures.




                                             1
       The Office’s investigations unit responds to allegations of violations of statutes,

rules, and regulations, and other misconduct by Commission staff and contractors. We

carefully review and analyze the complaints we receive and, if warranted, conduct a

preliminary inquiry or full investigation into a matter. The misconduct investigated

ranges from fraud and other types of criminal conduct to violations of Commission rules

and policies and the Government-wide conduct standards. The investigations unit

conducts thorough and independent investigations in accordance with the applicable

Quality Standards for Investigations. Where allegations of criminal conduct are

involved, we notify and work with the Department of Justice and the Federal Bureau of

Investigation, as appropriate.

                                      Audit Reports

       Over the past three and one-half years since I became the Inspector General of the

SEC, our audit unit has issued numerous reports involving matters critical to SEC

programs and operations and the investing public. These reports have included an

examination of the Commission’s oversight of the Bear Stearns Companies, Inc. and the

factors that led to its collapse, an audit of the Division of Enforcement’s (Enforcement)

practices related to naked short selling complaints and referrals, a review of the SEC’s

bounty program for whistleblowers, an analysis of the SEC’s oversight of credit rating

agencies, and audits of the SEC’s compliance with Homeland Security Presidential

Directive 12 and its oversight of the Securities Investment Protection Corporation’s

activities. In addition, in March 2009, we conducted a review of an agency restacking

project in which over $3 million was expended to relocate approximately 1,750 SEC




                                             2
employees in its headquarters building and, in September 2010, we completed an audit of

the SEC’s real property and leasing procurement process.

                                   Investigative Reports

       The Office’s investigations unit has conducted numerous comprehensive

investigations into significant failures by the SEC in accomplishing its regulatory

mission, as well as investigations of allegations of violations of statutes, rules, and

regulations, and other misconduct by Commission staff members and contractors.

Several of these investigations involved senior-level Commission staff and represent

matters of great concern to the Commission, Members of Congress, and the general

public. Where appropriate, we have reported evidence of improper conduct and made

recommendations for disciplinary actions, including removal of employees from the

federal service, as well as recommendations for improvements in agency policies,

procedures, and practices.

       Specifically, we have issued investigative reports regarding a myriad of

allegations, including claims of failures by Enforcement to pursue investigations

vigorously or in a timely manner, improper securities trading by Commission employees,

conflicts of interest by Commission staff members, post-employment violations,

unauthorized disclosure of nonpublic information, procurement violations, preferential

treatment given to prominent persons, retaliatory termination, perjury by supervisory

Commission attorneys, failure of SEC attorneys to maintain active bar status, falsification

of federal documents and compensatory time for travel, abusive conduct, and the misuse

of official position and government resources.




                                              3
       In August 2009, we issued a 457-page report of investigation analyzing the

reasons why the SEC failed to uncover Bernard Madoff’s $50 billion Ponzi scheme. In

March 2010, we issued a 151-page report of investigation regarding the history of the

SEC’s examinations and investigations of Robert Allen Stanford’s $8 billion alleged

Ponzi scheme. Most recently, on May 16, 2011, we issued a comprehensive and

thorough report of investigation into the circumstances surrounding the SEC’s decision to

lease approximately 900,000 square feet of office space at a newly-renovated office

building known as Constitution Center, which is the subject of this hearing.

          Commencement and Conduct of the OIG’s Leasing Investigation

       On November 16, 2010, the OIG opened our investigation as a result of receiving

numerous written complaints concerning the SEC’s decisions and actions relating to

Constitution Center. These complaints alleged that the decision to lease space at

Constitution Center was ill-conceived, resulted from poor management practices, and was

made without Congressional funding for the significant projected growth necessary to

support the decision.

       As part of our investigative efforts, we made numerous requests to the SEC’s

Office of Information Technology (OIT) for the e-mails of current and former SEC

employees for various periods of time pertinent to the investigation. The e-mails were

received, loaded onto computers with specialized search tools, and searched on a

continuous basis throughout the course of our investigation. In all, OIT provided e-mails

for a total of 27 current and former SEC employees for various time periods pertinent to

the investigation. We estimate that we obtained and searched over 1.5 million e-mails

during the course of the investigation.




                                            4
        We also made several requests to the SEC’s Office of Administrative Services

(OAS), which oversees the SEC’s leasing function, for documents relating to its leasing

practices. We carefully reviewed and analyzed the information we received as a result of

our document requests. These documents included all records relating to the Constitution

Center lease, as well as documents relating to the leasing of additional office space by the

SEC for the past several years.

        We took the sworn testimony of 18 witnesses in the investigation and interviewed

11 other individuals with knowledge of facts or circumstances surrounding the SEC’s

leasing activities.

        Issuance of Comprehensive Report of Investigation in Leasing Matter

        On May 16, 2011, we issued to the Chairman of the SEC a comprehensive report

of our investigation in the leasing matter that contained over 90 pages of analysis and

more than 150 exhibits. The report of investigation detailed all of the SEC’s recent

leasing-related decisions and analyzed all of the facts and circumstances that led to the

SEC’s decision to lease space at Constitution Center.

                       Results of the OIG’s Leasing Investigation

        The OIG investigation found that the circumstances surrounding the SEC’s

entering into a lease for 900,000 square feet of space at the Constitution Center facility in

July 2010 were part of a long history of missteps and misguided leasing decisions made

by the SEC since it was granted independent leasing authority by Congress in 1990. The

OIG investigation further found that based upon estimates of increased funding, primarily

to meet the anticipated requirements of financial reform legislation that was enacted on

July 21, 2010, the Dodd-Frank Wall Street Reform and Consumer Protection Act (Dodd-




                                              5
Frank), between June and July 2010, OAS conducted a deeply flawed and unsound

analysis to justify the need for the SEC to lease 900,000 square feet of space at the

Constitution Center facility. We found that OAS grossly overestimated (by more than

300 percent) the amount of space needed for the SEC’s projected expansion and used

these groundless and unsupportable figures to justify the SEC’s commitment to an

expenditure of approximately $557 million over 10 years.

       The OIG investigation also found that OAS prepared a faulty Justification and

Approval document to support entering into the lease for the Constitution Center facility

without competition. This Justification and Approval document was prepared after the

SEC had already signed the contract to lease the Constitution Center facility. Further,

OAS backdated the Justification and Approval, thereby creating the false impression that

it had been prepared only a few days after the SEC entered into the lease. In actuality,

the Justification and Approval was not finalized until a month later.

       A brief summary of our specific findings is set forth as follows. In 1990,

Congress provided the SEC with independent leasing authority, which exempted the SEC

from General Services Administration (GSA) regulations and directives. See 15 U.S.C. §

78d(b)(3). The House Conference Report for this legislation expressed the clear intention

that “the authority granted the Commission to lease its own office space directly will be

exercised vigorously by the Commission to achieve actual cost savings and to increase

the Commission’s productivity and efficiency.” H.R. Conf. Rep. 101-924, 101st Cong, 2d

Sess. 1990 at 20.


       Subsequent to Congress’s granting of independent leasing authority to the SEC,

several expensive missteps related to the SEC’s leasing actions and management of its


                                             6
space have occurred. For example, in May 2005, the SEC disclosed to a House

Subcommittee that it had identified unbudgeted costs of approximately $48 million

attributable to misestimates and omissions of costs associated with the construction of its

headquarters facilities near Union Station, known as Station Place One and Two. In

2007, merely a year after moving into its new headquarters, the SEC embarked on a

major “restacking” project pursuant to which various SEC employees were shuffled to

different office spaces in the same buildings at a cost of over $3 million. An OIG audit

of that project found that there was no record of a cost-benefit analysis having been

conducted before this undertaking. An OIG survey found that an overwhelming majority

of Commission staff affected by the restacking project had been satisfied with the

location of their workspace before that project was initiated, and did not believe the

project’s benefits were worth the cost and time of construction, packing, moving, and

unpacking.

       The OIG investigation further found that, as a result of a mistaken belief that the

SEC would receive significant additional funding, OAS made grandiose plans to lease an

upscale facility at Constitution Center. On May 14, 2010, the SEC submitted an

authorization request to the Chairman of the U.S. Senate Committee on Banking,

Housing, and Urban Affairs, requesting $1.507 billion for Fiscal Year (FY) 2012 to fund

an increase of 800 new staff positions. On May 20, 2010, the U.S. Senate passed a

version of the financial regulatory reform bill that eventually became Dodd-Frank (the

U.S. House of Representatives had passed a version of the legislation on December 11,

2009). The SEC estimated that it would need to add another 800 positions in FY 2011

and FY 2012 to implement Dodd-Frank. After the reconciliation process between the




                                             7
two versions of the financial regulatory reform bills, Dodd-Frank became law on July 21,

2010.

        Authorization of funding for an executive agency like the SEC does not guarantee

that the agency will be appropriated the funds. An authorization request is the first step

in the SEC’s lengthy budget process. Under that process, an authorization request is

submitted to Congress in May of the fiscal year two years prior to the fiscal year for

which the authorization is requested (e.g., the FY 2012 authorization request takes place

in May 2010). The following September, several months after the authorization request

is made, the SEC submits a proposed budget request to the Office of Management and

Budget (OMB). In November, the next step of the budget request process takes place:

OMB replies to the SEC with a “pass-back,” and the SEC and OMB then usually

negotiate the amount of the budget request. Several months later, the President formally

submits a budget proposal to Congress. Once the President makes the budget request to

Congress, Congress then begins the decision-making process as to how much money to

appropriate to the SEC and other agencies. SEC employees interviewed in connection

with the OIG’s leasing investigation acknowledged that an authorization may indicate an

intention for Congress to provide funding, but circumstances frequently change and,

therefore, federal agencies understand that until funds are appropriated, they cannot count

on receiving those funds.

        Notwithstanding the uncertainty of actually being appropriated the amount

requested through the budget process, in May 2010, OAS began planning for an

expansion at SEC Headquarters based on the agency’s FY 2012 budget request. Initially,

the SEC’s Associate Executive Director of OAS, Sharon Sheehan, and the former Chief




                                             8
of OAS’s Leasing Branch decided that the agency needed to lease approximately 300,000

square feet of space to accommodate the SEC’s needs through FY 2012. As of May

2010, the Chief of the Leasing Branch’s plan was to solicit offers from three properties

within walking distance of Station Place to meet the SEC’s additional space needs.

However, on June 2, 2010, the Chief of the Leasing Branch received an e-mail from the

real estate broker for a facility at Constitution Center, located on 7th and D Streets, SW,

approximately two miles from the SEC’s Station Place facility near Union Station,

regarding Constitution Center’s availability and some of its features.

       The 1.4 million square foot Constitution Center had just been renovated in “one of

the largest office redevelopment projects in Washington, DC,” according to promotional

literature. One of the more attractive features of the Constitution Center facility was its

5,000 square foot lobby with spacious accommodations for a guard desk(s), security

screening room, shuttle elevator lobby, and display space, as well as Jerusalem limestone

floors, marble walls, wood and metal paneling, decorative lighting and a floor-to-ceiling

glass wall facing the landscaped courtyard. The facility promised abundant daylighting,

panoramic views of the city and surrounding region, and an open plaza area that

contained a one-acre private garden.

       Almost immediately after being contacted by the broker for Constitution Center,

OAS decided to expand the previous delineated locality of consideration to add

Constitution Center to the other three buildings that would be included in the solicitation

for offers for approximately 300,000 square feet of space.

       On June 17, 2010, OAS briefed SEC Chairman Mary Schapiro on its immediate

expansion plans at SEC Headquarters. At that briefing, the Chief of the Leasing Branch




                                              9
informed the Chairman that the SEC needed to lease immediately 280,000 to 315,000

square feet of office space in Washington, D.C., and identified on a map specific

locations for that expansion, including Constitution Center. Both Chairman Schapiro and

her former Deputy Chief of Staff, Kayla Gillan, recalled the Chairman expressing clear

preference for the locations that were within walking distance of Station Place, as

opposed to the Constitution Center facility. Chairman Schapiro also questioned whether

the SEC needed 300,000 additional square feet, given that she believed the SEC should

concentrate its growth in the agency’s regional offices.

       The OIG investigation found notwithstanding Chairman Schapiro’s expressions in

mid-June 2010 of her preference for a facility closer to Station Place and her questioning

of why the SEC needed as much as 300,000 square feet of space, by mid-July, OAS came

back to the Chairman with an urgent recommendation that the SEC immediately lease

900,000 square feet of space with the only available option being the Constitution Center

facility. The OIG investigation found that the analysis OAS performed to justify the need

for three times its original estimate of necessary square footage, and its determination that

the Constitution Center facility was the only available option, was deeply flawed and

based on unfounded and unsupportable projections. We found that, as a consequence of

its flawed analysis, OAS grossly overestimated the amount of space needed at SEC

Headquarters for the SEC’s projected expansion.

       Specifically, the OIG investigation found that OAS erroneously assumed that all

of the new positions projected for FY 2011 and FY 2012 would be allocated to SEC

Headquarters and that none of those new positions would be allocated to the SEC’s

regional offices. This assumption was contrary to the position the Chairman had




                                             10
communicated to OAS at the June 17, 2010 meeting that as much as possible of the

SEC’s future growth should occur in the regional offices, not at Headquarters. We found

that although the need for a calculation reflecting the allocation of a number of the new

positions to the regions was discussed, none was ever prepared. Sheehan testified that

“OAS had difficulty getting the breakout,” and acknowledged that, assuming all of the

new positions would be located at Headquarters would “inflate the number.”

       We also found that OAS conducted its analysis of the SEC’s space needs by using

a standard of 400 square feet per person when calculating how much space would be

needed for the additional positions it believed it would gain as a result of Dodd-Frank and

associated increases in the SEC’s budget. A Realty Specialist in OAS explained to the

OIG that the Chief of the Leasing Branch and she developed the 400 square feet standard

by dividing the square footage of office space by the number of people the SEC had

authority to hire for the offices in that space at Headquarters and several of the SEC’s

regional offices. The Realty Specialist described the standard as a “WAG” (wild-assed

guess) and a “back of the envelope” calculation, and acknowledged in her OIG testimony

that OAS “didn’t do this scientifically.” OAS’s 400 square feet per-person standard was

an “all-inclusive number” that included common spaces and amenities. It also included

an additional 10 percent for contractors, 10 percent for interns and temporary staff, and

five percent for future growth. Notwithstanding this “all-inclusive” number, we found

that when OAS later performed its calculations to justify the Constitution Center lease, it

added even more unnecessary space by double-counting contractors, interns and

temporary staff and by improperly incorporating future growth into the projections of




                                            11
space needed. We also found that each one of these estimates was wildly inflated and

unsupported by the data OAS was using.

       The OIG investigation found that the OAS inflated its estimate of new positions

that would require space by including an estimate of the number of contractors who

would be hired in addition to the number of SEC employees. In early June 2010, OAS

Associate Executive Director Sheehan asked the OAS Branch Chief for Space

Management & Mail Operations to obtain information about the number of contractors in

the agency. On June 12, 2010, the Branch Chief reported back, “Right now, based on the

Contractor numbers I have at [Station Place], I can justify us using a 10%, Contractor to

Position, factor.” The Branch Chief later learned that OAS needed the numbers to be

larger. He testified as follows regarding his understanding of why the Chief of the

Leasing Branch needed the number to be larger: “[W]hat I understand she was trying to

do was to make sure that whatever size lease she entered into was enough to meet our

needs. And I think that in this case, if we were going to take the whole building, the

numbers needed to be larger.” Ultimately, OAS ignored the data that had been gathered

during the first two weeks of June 2010, which indicated the correct contractor ratio was

10 percent, and inflated its calculation of space by adding contractors using a completely

arbitrary 20 percent ratio.

       In addition, we found that OAS’s estimate of new positions that would need space

included an estimate of the number of interns and temporary staff who would be hired, in

addition to new employees. OAS’s estimate of interns and temporary staff to be hired

assumed a ratio of 16.5 percent (9 percent for interns and 7.5 percent for temporary staff).

However, the OIG found that OAS’s estimate of intern and temporary staff positions was




                                            12
significantly higher than the estimate in the data it had received. On July 16, 2010, a

management program analyst in the SEC’s Office of Human Resources provided OAS

with “the [peak] numbers [for interns and temporary staff],” which ranged from

approximately 4 to 7 percent for the six fiscal years of data analyzed.

       Further, the OIG investigation found that OAS’s calculations increased the

amount of space required for every person to be hired in FY 2011 and FY 2012 by 10

percent for “inventory” representing “vacant offices you have for expansion and

unanticipated growth, that kind of thing,” according to an OAS Assistant Director.

However, as was the case with the estimate for contractors, temporary staff and interns,

an inventory factor had already been incorporated into the calculation of the 400 square

foot standard. Moreover, the 10 percent inventory factor added was double the 5 percent

factor previously determined to be appropriate.

       We also found that OAS’s estimate of new positions that would need space

included an assumption not only about FY 2011 and FY 2012, but also reflected an

assumption that, in FY 2013, Congress would increase the SEC’s appropriation by 50

percent of the assumed FY 2012 increase. We found that the assumption of 50 percent

growth in 2013 was arbitrary and unsupported. Based on the assumed FY 2013 growth,

OAS calculated that the SEC would add another 295 positions in that year and again

assumed that all of those positions would be allocated to SEC Headquarters. We found

that this estimate was not based upon any firm numbers or projections and was contrary

to the SEC’s planning and budget process, which does not project growth more than two

years into the future.




                                             13
       The OIG investigation found that OAS used the above-described overinflated

estimates to calculate a space need of 934,000 square feet. On Friday, July 23, 2010,

Executive Director Diego Ruiz met with Chairman Schapiro, Chief of Staff Didem

Nisanci, and then-Deputy Chief of Staff Gillan to recommend that the SEC lease 900,000

square feet of space at Constitution Center. Gillan recalled the July 23, 2010 meeting

with Ruiz, and stated that Ruiz had come to her “and said that he needed to see Mary

[Schapiro] quickly because he needed to make a quick decision on Constitution Center.

That the other possible space opportunities had evaporated, gone to others, were no

longer available. And that this one was really all that was left and that we needed to act

quickly.”

       Chairman Schapiro testified as follows regarding the July 23rd meeting with Ruiz:

               I remember explicitly being told there really wasn’t any
               other space available that could fulfill our needs and that
               there was a time – a sense of we were about to lose this.
               We had lost other space that we had apparently indicated an
               interest in and that we were about to lose this. So there was
               a sense of urgency on their part.

       Gillan testified that Ruiz did not explain in the July 23, 2010 meeting, or at any

other time, that the assertion that SEC Headquarters needed an additional 900,000 square

feet was predicated, in part, on the assumption that all of the agency’s new positions in

FY 2011 and FY 2012 would be allocated to Headquarters. Gillan testified, “[I]n fact,

that’s inconsistent with what I had understood, because … [Chairman Schapiro]

specifically said that, to the extent possible, she wanted new hires to go to the regions.”

Gillan also testified that Ruiz did not explain in the July 23, 2010 meeting, or at any other

time, that the assertion that SEC Headquarters needed an additional 900,000 square feet

was predicated, in part, on OAS’s projections of significant growth in FY 2013.



                                             14
       On July 23, 2010, Ruiz sent an e-mail to Sheehan and others stating, “Met with

Chairman this morning, and we have her approval to move forward.” The OIG

investigation found that the SEC negotiated the contract for 900,000 square feet at

Constitution Center in three business days, signing the contract on July 28, 2010. On

July 27, 2010, the SEC staff involved in that negotiation discussed the fact that they had

“no bargaining power” because “Sharon [Sheehan] wants this signed tomorrow.”

Internal e-mails show that OAS feared losing the building to the National Aeronautics

and Space Administration, which had also expressed an interest in the facility.

       On July 28, 2010, the SEC executed a Letter Contract committing the SEC to

lease approximately 900,000 square feet of space at Constitution Center. The contract

established a multiphase delivery schedule, in which Phase 1, approximately 350,000

square feet, would be delivered no later than September 2011, and Phase 2,

approximately 550,000 square feet, would be delivered no later than September 2012.

The contract stated that “the SEC’s interests require that [the owner] be given a binding

commitment so that the space required will be committed to the SEC and initial build out

for the Phase 1 space can commence immediately ….” The lease term in the contract

was ten years. The Chief of the Leasing Branch estimated the costs associated with the

SEC’s leasing and occupying Constitution Center would be $556,811,589.

       The Letter Contract also granted the SEC the right of first refusal for the

remaining approximately 500,000 square feet of space at Constitution Center until

December 15, 2010. If the SEC had exercised this option, it would have leased the entire

1.4 million square feet of space at Constitution Center. The Chief of the Leasing Branch

testified that OAS wanted a right of first refusal on all of the remaining space at




                                             15
Constitution Center “because the Congress was throwing money at us” and “Sharon

[Sheehan] was always hoping that we wouldn’t have anybody else in the building. That

we would be able to ultimately justify the need for the whole building or something.”

       After the SEC committed itself to the ten-year lease term at a cost of

$556,811,589, it entered into a Justification and Approval for Other than Full and Open

Competition, which is required by the Federal Acquisition Regulation (FAR) when an

agency decides not to allow for full and open competition on a procurement or lease. The

FAR permits other than full and open competition “when the agency’s need for the

supplies or services is of such an unusual and compelling urgency that the Government

would be seriously injured unless the agency is permitted to limit the number of sources

from which it solicits bids or proposals.” 48 C.F.R. § 6.302-2 (emphasis added).

       The OIG investigation found that the Justification and Approval to lease space at

Constitution Center without competition was inadequate, not properly reviewed, and

backdated. The Justification and Approval provided as follows:

              To fulfill these new responsibilities it is necessary to
              significantly increase full-time staff and supporting
              contractors by approximately 2,335 personnel to be located
              at the SEC’s headquarters in Washington, DC. However,
              the SEC’s current headquarters is full. Accordingly the
              SEC has a requirement of an unusual and compelling
              urgency to obtain approximately 900,000 rentable square
              feet (r.s.f.) of additional headquarters space in the
              Washington, D.C. Central Business District, as this is the
              amount of space required to accommodate the
              approximately 2,335 new staff and contractors in
              headquarters.




                                            16
The Justification and Approval asserted that the 900,000 square feet “must be in a single

building or integrated facility to support the SEC’s functional requirements and

operational efficiency.”

       An OAS Management and Program Analyst signed the Justification and Approval

as the SEC’s Competition Advocate. She testified that she did not take any steps to

verify that the information in the Justification and Approval was accurate, “[o]ther than

asking the contracting officer, you know, just general questions, ‘Is this indeed urgent

and compelling[?].’” She further testified that when she signed the Justification and

Approval, she was not aware that funding for the projected growth had not been

appropriated. She also did not have an understanding of when the projected 2,335

personnel were expected to be hired. Further, she acknowledged in testimony that the

SEC would, in fact, not be “seriously injured” if it lost the opportunity to rent one

contiguous building and had to rent multiple buildings to fill its space needs.

       The FAR also requires that a Justification and Approval for Other than Full and

Open Competition be posted publicly “within 30 days after contract award.” The Letter

Contract was signed on July 28, 2010. Accordingly, the deadline for publication of the

Justification and Approval was August 27, 2010. On September 3, 2010, the SEC

publicly posted the Justification and Approval on the Federal Business Opportunities

website. The document was signed by four individuals, with all four signatures dated

August 2, 2010.

       However, the OIG investigation found that the Justification and Approval was not

finalized until September 2, 2010, and substantial revisions were being made up to that

date. We found that three of the four signatories executed the signature page on August




                                             17
2, 2010, before a draft even remotely close to the final version existed. The OIG found

that the SEC’s Competition Advocate executed the signature page on August 31, 2010,

and initially backdated her signature to August 27, 2010, but subsequently whited-out the

“7” on the date to make it appear that she also had signed the document on August 2,

2010. The actions of the signatories to the Justification and Approval gave the public the

false impression that the document was finalized a few days after the Letter Contract was

signed, and there was only a delay in its publication.

       The OIG investigation also found that there is significant uncertainty among the

SEC staff regarding important requirements in connection with government leasing and

there are serious questions as to whether the SEC complied with several of those

requirements in connection with its leasing of Constitution Center. Appendix B of OMB

Circular No. A-11 states, “Agencies are required to submit to OMB representatives the

following types of leasing and other non-routine financing proposals for review of the

scoring impact: Any proposed lease of a capital asset where total Government payments

over the full term of the lease would exceed $50 million.” Although the evidence showed

the SEC initially contemplated providing OMB with the written notification and senior

agency officials believed that OMB had been formally notified, no written notification to

OMB was provided.

       In addition, we found that there is a possibility that the SEC violated the

Antideficiency Act in connection with its lease of Constitution Center. The

Antideficiency Act prohibits officers or employees of the government from involving the

government “in a contract or obligation for the payment of money before an

appropriation is made unless authorized by law.” 31 U.S.C. § 1341(a)(1)(B). The




                                             18
incurring of an obligation in excess or advance of appropriations violates the

Antideficiency Act. Notwithstanding its July 28, 2010 commitment to a ten-year lease at

Constitution Center, the SEC did not obligate the entire amount of rent payments due

under the lease. Although the SEC has been granted independent leasing authority

statutorily and is generally granted authority to enter into multiyear leases in its annual

appropriations, the U.S. Government Accountability Office (GAO) has found that “[t]he

existence of multiyear leasing authority by itself does not necessarily tell [an agency]

how to record obligations under a lease.” GAO has distinguished agencies that have

“specific statutory direction” to obligate funds for multiyear leases one year a time, such

as the GSA, from agencies such as the Federal Emergency Management Agency

(FEMA), which do not have such explicit direction. Because the SEC, like FEMA, does

not have specific statutory direction to obligate funds for its multiyear leases on an annual

basis, its lease obligations may have to be obligated in their entirety at the time they are

incurred. Thus, SEC may have violated the Antideficiency Act in connection with its

commitment to lease space at Constitution Center.

       In early October 2010, the SEC informed the owner of the building that it could

not use approximately 600,000 of the 900,000 square feet of space it had contracted for at

Constitution Center and asked for the owner’s assistance in finding other tenants for that

space. In November 2010, the owner of the building began negotiations with the Federal

Housing Finance Agency (FHFA) and the Office of the Comptroller of the Currency

(OCC) to lease portions of Constitution Center. In January 2011, OCC and FHFA

entered into contracts for space at Constitution Center, leaving approximately 350,000

square feet to which the SEC remains committed. On January 18, 2011, counsel for the




                                             19
building owner sent a demand letter to the SEC, asserting that the SEC’s actions had

caused him to incur $93,979,493 in costs at Constitution Center.

       The OIG investigation further found that a “closed” and “rigid” atmosphere

within OAS may have contributed to the irresponsible decisions made with respect to the

Constitution Center lease. In the course of this OIG investigation, several witnesses who

sought to remain anonymous came forward to the OIG to provide information concerning

the environment and the decision-making processes within OAS. These witnesses

described an environment in which inexperienced senior management make unwise

decisions without any input from employees who have significant knowledge and

experience. We found that questioning of upper management decisions by the staff is

“not allowed” and that OAS Executive Director Sheehan surrounds herself with “yes-

men” and “does not want to hear what [experienced staff] will tell her.” These

individuals testified that upon learning of the SEC’s decision to lease 900,000 square feet

of space at Constitution Center, they “just couldn’t understand how [OAS] could justify

that amount of space …” and were “flabbergasted” by the decisions. One experienced

employee testified that OAS management had “grandiose plans” and was significantly

influenced by the upscale nature of the facility.

                Recommendations of the OIG’s Report of Investigation

       We provided our Report of Investigation to the SEC with the recommendation

that the newly-appointed Chief Operating Officer/Executive Director carefully review the

report’s findings and conduct a thorough and comprehensive review and assessment of all

matters currently under the purview of OAS. We further recommend that the Chief

Operating Officer/Executive Director, upon conclusion of such review and assessment,




                                             20
determine the appropriate disciplinary and/or performance-based action to be taken for

matters that relate to subject of the report of investigation, including, at a minimum,

consideration of disciplinary action against two individuals, up to and including

dismissal, and consideration of disciplinary action against a third individual.

       We also recommended that the SEC request a formal opinion from the

Comptroller General as to whether the Commission violated the Antideficiency Act by

failing to obligate appropriate funds for the Constitution Center lease.

       My Office is committed to following up with respect to all of the

recommendations we made in our Report of Investigation to ensure that appropriate

changes and improvements are made in the SEC’s leasing operations as a result of our

findings.

                                        Conclusion

       In conclusion, I appreciate the interest of the Chairman, the Ranking Member, and

the Subcommittee in the SEC and my Office and, in particular, in the facts and

circumstances pertinent to our leasing report. I believe that the Subcommittee’s and

Congress’s continued involvement with the SEC is helpful to strengthen the

accountability and effectiveness of the Commission. Thank you.




                                             21
